TN

C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street

E-Mail Address:
Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-820

JOHN MCMAHON, in his official capacity as
Sheriff of San Bernardino County, RONALD SINDELAR,
in his official capacity as Deputy Sheriff for
San Bernardino County,

Petitioners,
vs.

CHEMEHUEVI INDIAN TRIBE, on its own behalf
and on behalf of its members parens patriae, and
CHELSEA LYNN BUNIM, TOMMIE ROBERT OCHOA,
JASMINE SANSOUCIE, NAOMI LOPEZ individually,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of February, 2020, send out

from Omaha, NE 1 package(s) containing 3 copies of the REPLY TO BRIEF IN OPPOSITION in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
TIMOTHY T. COATES SHAUN M. MURPHY MICHELLE BLAKEMORE
Counsel of Record SLOVAK BARON EMPEY MURPHY — MILES KOWALSKI
GREINES, MARTIN, STEIN & & PINKNEY LLP SAN BERNARDINO COUNTY
RICHLAND LLP 1800 East Tahquitz Canyon Way COUNSEL
5900 Wilshire Boulevard, Palm Springs, California 92262 385 North Arrowhead
12th Floor Telephone: (760) 322-2275

Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tecoates@gmsr.com

Facsimile: (760) 322-2107
E-mail: murphy@sbemp.com

Counsel for Petitioners
John McMahon and
Ronald Sindelar

Subscribed and sworn to before me this 14th day of February, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

Avenue, 4th Floor

San Bernardino, California

92415

Telephone: (909) 384-5355

Facsimile: (909) 387-3070

E-mail: mblakemore@
cc.sbcounty.gov
miles.kowalski@
ce.sbcounty.gov

hos CbMit» Qudrarh, Qihl

 

 

Notary Public

Affiant

39465
John McMahon, et al. v. Chemehuevi Indian Tribe, et al.
United States Supreme Court Case No. 19-820
Ninth Circuit Court of Appeals Case No. 17-56791
United States District Court, Central District Of California
Eastern Division, Riverside Case No. 15-cv-01538-DMG-FFM

SERVICE LIST

Lester J. Marston, Esq.
RAPPORT AND MARSTON
405 West Perkins Street
Ukiah, California 95482
Telephone: (707) 462-6846
Facsimile: (707) 462-4235
Email: marston1@pacbell.net
Attorney for Plaintiffs, Appellants, and Respondents CHEMEHUEVI
INDIAN TRIBE, on its own behalf and on behalf of its members parens
patriae, CHELSEA LYNN BUNIM, TOMMIE ROBERT OCHOA,
JASMINE SANSOUCIE, and NAOMI LOPEZ
